No. 20-637

IN THE SUPREME COURT OF THE UNITED STATES

DARRELL HEMPHILL,
Petitioner,
v.
STATE OF NEW YORK,
Respondent.

CERTIFICATE OF SERVICE
I, Noah J. Chamoy, counsel for the Office of the Bronx District Attorney, hereby
certify that on this 4th day of December, 2020, I caused one digital copy of the
foregoing Request for Extension of Time to be served, on mutually agreed upon
consent to electronic service, on the following counsel:
Jeffrey L. Fisher, Esq.
Counsel of Record for Petitioner
Professor of Law
Co-Director, Supreme Court Litigation Clinic
Stanford Law School
via e-mail: jlfisher@law.stanford.edu
All parties required to be served have been served. I am a member of the Bar of
this Court.

_______________
Noah J. Chamoy
Counsel for Respondent

